 :::
 """




                     NATIONAL DRG VALIDATION STUDY


                    SPECIAL REPORT ON CODING ACCURACY





       Si.V'(".r.




OFFICE OF INS. PECTOR GENERAL

OFFICE OF ANAL VSIS AND INSPECTIONS

                                           FEBRUARY 1988
                     The Office of Inspector General

The mission of the Office of Inspector General (OIG) is to

promote the efficiency, effectiveness and integrity of programs

in the United states Department of Health and Human Services

(HHS). It does this by developing methods to detect and prevent
fraud , waste and abuse. Created by statute in 1976 , the
Inspector General keeps both the Secretary and the Congress fully
and currently informed about program or management problems and
recommends corrective action. - The OIG performs " its mission
conducting audits , investigations and inspections with
approximately 1;200 staff strategically located around the
country.
                 Office of Ana1ysis and Inspections 




This special report is produced by the Office of Analysis and
Inspections (OAI), one of the three major offices wi thin the OIG.
The other two are the Office of Audit and the Office of
Investigations. The OAI conducts inspections which are typically
short-term studies designed to determine program effectiveness
efficiency and vulnerability to fraud and abuse.

                                            This Report

Enti t1ed " National     DRG Validation Study - Special Report on
Coding Accuracy, " this study was conducted to determine the
extent of coding errors across a random sample of all hospitals
paid under the Prospective PaYment System. The report was
prepared by the fOllowing staff of the Office of Analysis and
Inspections:
Headquarters                                            Region I
Catha1een A. Ahern                                      Joyce M. Greenleaf , M.
David C. Hsia, J.   , M.                                Cindy A. Pi1 tch ,   M. P. H.
Wm. Mark Krushat , M.

Brian M. Rawdon                                         Region V
Barry L. Steeley
Jane C. Tebbutt ,   M. S.                               Natalie A. Coen
Nicole Bass                                             Suzanne G. Johnson
Patti Snyder                                            Margaret Shell
                                                        Region IX
                                                        Kathy L. Admire

                                                        Leonard Czajka

                                                        Kaye D. Kidwell , M.

                    NATIONAL DRG VALIDATION STUDY

                  SPECIAL REPORT ON CODING ACCURACY





                        RICHARD P. KUSSEROW

                         INSPECTOR GENERAL





OAI-12-88-0l0l0                                   FEBRUARY 1988
                          EXECUTIVE SUMRY
    The Office of Inspector General (OIG) studied the accuracy

    wi th which hospitals reported the diagnoses and procedures

    performed on Medicare beneficiaries under the prospective

    paYment system (PPS). A two-stage cluster design sampled

      050 medical records from 239 hospitals, stratified by size.
    Medical records specialists reabstracted the information in
    the medical record for each case to arrive at the correct
    diagnosis-related group (DRG), on which paYment is based.
    The wrong DRG was originally assigned , based on hospital

    coding, in 20. 8 percent of the cases reviewed. Smaller

    hospi tals made significantly more errors than mid-size and

    large hospitals. A significant percentage of the errors

    (over 61 percent) favored the hospitals , that is , the

-   hospitals were paid more for the hospital stay than they
    would have been if the correct codes had been submitted.
    Previous studies had found the direction of errors to be
    random , overpaying and underpaying the hospitals about
    equally.
    Most errors (48 percent) derived from physician designations

    of diagnoses or procedures, which , although incorrect or

    insupportable , were not corrected before a claim for payment
    was submitted. Other causes of these errors include

    incorrect sequencing of diagnoses or codes (27 percent) and

    incorrect coding (12 percent).
    These errors caused an overall 1. 3 percent overpaYment in the

    sample, which , if projected to all PPS hospitals , would

    represent $308 million in excess paYments in Fiscal Year

    1985.
                                               ..



                         TABLE OF CONTENTS


EXECUTIVE SUMRY.     .                          . i

INTRODUCTION                                    . 1

    Origin of the Prospective PaYment System    . 1

    DRG Implementation                          . 2

    Background                                  . 5

    Methodology. .                              . 5

FINDINGS                                        . 8

CONCLUSIONS. .

APPENDIX

                       g.




                            INTRODUCTION

From the inception of Medicare in 1965 until 1983, hospitals had
been paid on a reasonable cost basis for caring for Medicare
beneficiaries. They were reimbursed for their expenditures,
based on cost reports submitted annually. The more services a
hospital rendered, and the more those services cost , the more the
hospital received in paYment from Medicare. Third- party payers
including Medicare , tended to isolate both the patient and the
provider of care from the effects of steadily increasing hospital
expendi tures. Many of these increases were due to new techniques
and procedures , with life-saving and life-enhancing consequences.
Others were due , however , to a system of paYment which rewarded
inefficiency. As medical expenditures outpaced general inflation
rates , various limits were put on the amounts that would be
reimbursed, but the cost-based methodology remained the . same.

ORIGIN OF THE PROSPECTIVE PAYMENT SYSTEM

Looking for ways to reverse the trend toward higher health care
expendi tures, the Health Care Financing Administration (HCFA)
 funded various studies , one of which resulted in the diagnosis-

related group (DRG) system of classification. Robert B. Fetter

John D. Thompson and their colleagues at Yale University s Center

 for Health Studies developed DRGs as a framework to monitor
quali ty of care and utilization review in institutional settings.
Their original goal was to define a " case " in terms of resource
consumption. These DRG categories would have to represent
clinically coherent groups of patients with similar patterns of
resource use. Since treatment , as a rule , is based on diagnosis
this became the logical starting point.     More than a third of a
million hospital records were abstracted to analyze the patients
condi tion , age , the presence or absence of complicating
illnesses , the length of stay and the treatment rendered. The
information was analyzed by statistical means , with length of
stay used as a surrogate for resource consumption , but decisions
were made by physicians as to the clinical relationships
identified. The resulting DRG categories , which were refined
several times during development and field testing, represent
groups of patients who can be statistically shown to require , on
the average , similar levels of care. Not every instance of a
given DRG would require the same expenditure of hospital
resources as the next of that DRG , but on the average , DRGs can
be ranked based on the " weight" given to the intensity of care
required by patients in that DRG. In 1983 , there were 467 DRGs
based on diagnosis , and 1 DRG which represented instances in
which the surgical procedure performed was not related to the
principal diagnosis    (e.  , a patient admitted for respiratory
problems who slipped and broke a bone, which was then surgically
repaired) .
On October 1 , 1983, HCFA ' implemented a wholly new approach to
paying hospitals for the inpatient care of Medicare

beneficiaries. The Congress had mandated a prospective payment

system (PPS) based on DRGs , with rates for each DRG determined
prospectively.
The PPS is responsible for reimbursement for Medicare patients at
more than 5 , 400 hospi tals nationwide. Another 2 , 000 hospitals or
special ty wings of hospitals are exempt from  PPS.    These include
those specializing in the treatment of psychiatric disorders

physical rehabilitation and , until recently, drug and alcohol

treatment.
Wi th the change to PPS , hospitals receive a pre-established

paYment for each discharge based upon its DRG. As described
above , the DRG paYment represents an average cost for patients
having similar diagnoses. Some discharges consume more services

(i.e., cost more) than the paYment, while others use    less. The
hospi tal retains any surplus from discharges costing less than

their DRG paYments and absorbs losses on those consuming more

services than the paYment. An assumption underlying PPS is that
a fixed paYment per discharge would induce hospitals to implement
economies and reduce the unnecessary services previously
associated with the retrospective reimbursement system. At the
same time , the total payments to the hospital should provide , on
the average , the same resources for its patients as the cost-
based system.
The PPS also simplified reimbursement administration and program
control.   For example , the case-mix index (CMI) describes , in a
single measure , the complexity of a hospital' s discharges

because it represents a weighted average of all the DRGs treated

at that hospital. Hospitals that attract a sicker patient
population , and , therefore , need to provide a greater degree of
care , have higher CMIs. The PPS adjusts reimbursement to
compensate for the more complicated patient mix. The CMI also

permi ts administrators to monitor health care delivery, at least

to the Medicare population , via previously unavailable

comparisons both between hospitals and of a single institution

over time.
DRG IMPLEMENTATION

Implementation of PPS depended upon accurate coding using the

International Classification of Diseases , Ninth Revision
Clinical Modification (ICD-9-CM). This three- volume reference
uses a five-digit code to classify approximately 10 000 diseases
by anatomic and pathologic taxonomy, and a four-digit code to
describe about 1 080 types of diagnostic and therapeutic
procedures. The National Center for Health Statistics originally
sponsored the development of ICD-9-CM to automate the collection

of morbidity and mortality statistics for epidemiological

research.
The PPS radically changed ICD-9-CM' s use from research to claims
processing. Two areas of confusion were created with this new
application. The first is that ICD-9-CM , which was created for
research purposes , is used in the construction of DRGs. The
second is that DRGs were initially created for reviews of quality
and utilization. This has inevitably led to difficulties when
used for paYment purposes. Formerly, the selection of one
diagnosis or code over another would have little effect on the
mass of data co11 ected for epidemiological or other -research
purposes. Now these , choices have an impact that can affect not
only individual hospitals but the yearly Medicare inpatient
expendi ture of $27 billion. The Office of Inspector General
( OIG) has issued a number of individual reports focusing on
coding problems wi thin specific disease entities. This study
examines coding errors across a random sample of all hospitals
paid under PPS.
The HCFA calculated " relative weights " for 468 DRGs from
historical Medicare cost and charge  data.    The relative weights
came from a 20 percent sample of 1981 Medicare cases from each
participating hospital and matching cost   reports.   Thus Medicare
weights represent the actual care rendered to Medicare patients.
Weights could be different for other populations because of
their varying age , sex , health status, etc.   At the inception of
PPS , the relative weights theoretically averaged 1. 0000 (after
adj ustments for DRG frequency). Those DRGs consuming more
resources have higher relative weights. For instance , a cardiac
val ve procedure with pump and cardiac catheterization (DRG 104)
bore a relative weight of 6. 8527 , whereas malignancy aftercare
(DRG 465) carried a relative weight of 0. 2071 in 1983. In this
report , we discuss our findings in terms of the weights in use
during Fiscal Year (FY) 1985 , the period under review. The
relative weights have changed each year in response to changes in
hospitals   ' practices. For example , if most simple cases of a
given procedure are now performed in an outpatient setting, the
relative weight for the remaining (more complex) inpatient cases
will increase.   Conversely, a very complex procedure may have
become less time- or resource-intensive due to advancing
technology, and now have a lower re1 ati ve weight.
A hospital' s paYment depends on the product of the DRG' s relative
weight times the hospital' s blended paYment rate , which takes
into account the hospital' s specific historical  costs.
blended rate in effect in FY 85 provided for a hospital'
                                                          The
historic costs to represent 50 percent of its rate, while the
federal portion was based 75 percent on regional rates
(recognizing varying market-basket costs , area wage levels , etc.

and 25 percent on national  rates.  The blended paYment rate will
be phased out as PPS is fully implemented , and most hospitals

will be paid based on the same national   rate. Adjustments are
made to the blended paYment rate for area wage levels , urban

versus rural locations , indirect medical education and other

factors.
Addi tional paYments can be made for discharges which are
statistical " outliers, "requiring much longer than average
lengths of stay or incurring much higher than average    costs.
Some types of hospitals , such as sole community providers , rural

referral centers and those which treat a disproportionate share




costs.
of Medicare and Medicaid patients , receive supplemental paYments
of various sorts. Yet other costs are " pass-throughs " at least
temporarily.  These include direct medical education and capital

The HCFA calculates standardized amounts , which represent the
cost of an average Medicare discharge (i. e. , the paYment for a
case having a relative weight of 1. 0000). In 1985 , the national
standardized amount averaged $2 972 in urban areas and $2 358 in
rural areas. Congress periodically modifies the standardized
amount to reflect changes in the costs of delivery of health care
or for other reasons it judges appropriate.
Processing a Medicare claim for paYment commences with the
patient's discharge from the" hospital , so cases under PPS are
frequently referred to as " discharges, " but also include
patients who die , are transferred o r leave the hospital against
medical advice. At the time of discharge , the attending
physician (1) lists the principal diagnosis , secondary diagnoses
and any inpatient procedures on the front of the chart; and (2)
signs an attestation certifying the correctness of these
statements. The hospital then assigns ICD-9-CM codes to all
diagnoses and procedures for each discharge, using the rules of
the Uniform Hospital Discharge Data Set (UHDDS) and the coding
conventions known to Accredited Record Technicians (ARTs) and
Registered Record Administrators (RRAs), the professional
personnel trained in management of medical records and use of
coding systems. These codes are shown on the " face sheet" of the
medical record and on the claim for paYment from Medicare.
Local fiscal intermediaries (FIs) contract with HCFA to process

these codes as part of the hospital claim. The FI applies the
Medicare Code Editor , a program which checks for valid codes
coherent data , and coverage by Medicare. Claims that fail these
edi ts are returned to the hospital for correction. Using the
hospi tal- generated codes , the FI processes each record through a

computer program , named GROUPER and mandated by HCFA , that

returns the appropriate DRG. In addition to codes , the grouping
process also considers the patient' s age , sex , complicating
condi tions and status at discharge. A related computer program
named PRICER adjusts for the area wage level , hospital-specific
historic costs , etc. , and assigns a paYment amount to the DRG.
Background
Wi th the change from retrospective reimbursement to prospective
paYment , the OIG began a number of studies aimed at
understanding PPS and its effects on utilization and     provider
behavior.   Among our concerns was that inappropriate    provider
behaviors , intended to maximize reimbursement , could   place
Medicare beneficiaries at unnecessary risk and cause
inappropriate charges to HCFA.
The OIG anticipated the possibility that hospitals seeking
maximum allowable paYments might engage in impermissible coding
practices.  This " gaming " could take the form of coding diseases
that the patient did not have or that the attending physician had
not attested to , changing the order of the ICD-9-CM codes
choosing a principal diagnosis other than the condition
responsible for admission to the hospital , or picking a non­
specific diagnosis. A hospital that influences the coding
process in an improper manner to increase its revenue engages in
a practice known as " DRG creep.
In contrast , choosing among viable , alternate principal diagnoses

does not violate ICD-9-CM priority rules. However , this

 optimization " still , has the potential to increase reimbursement
and contribute to overall increased costs to the government.
Various attempts have been made to measure the components of the
increase in CMI among all PPS hospitals. The weighted average CMI
for FY 84 PPS bills nationally was 1. 1389; by FY 85 , it was
  1739 , and preliminary FY 86 data showed an increase to 1.2066.
As mentioned earlier , part of this increase is due to the shift
of some services to an outpatient setting, and to more attention
being paid to precise and thorough  coding.    The CMI increases may
also be due to the advent of new , more intense treatment regimens
for diseases affecting the  elderly.    This inspection was designed
to measure the increase due to inaccurate or improper coding.
Methodology
Based on the National DRG Validation study sample , the OIG
compared the codes paid by Medicare with the codes supported by
the underlying medical  record.  Where inconsistencies occurred
the study investigated their causes , effect on DRG assignment
resul ting influence on reimbursement , and changes in the CMI.
The study also measured whether systematic coding changes were
biased in favor of either the providers or Medicare.
 This study used a stratified, two-stage, cluster sampling design

 based on hospitals. The first stage used simple random sampling

 wi thout replacement to select 80 hospitals from each of three
. groups based on bed size: small (fewer than 100 beds); mid-size
  (100 to 299 beds); and . large (300 or more beds). The three
 cri teria that defined the hospitals in the sampling frame were:
 they were acute care, short stay facilities; they were not

 located in a PPS waiver state (Massachusetts, Maryland , New

 Jersey, or New York); and, they had participated in the Medicare

 program since at least 1981 (and therefore had contributed to the

 establishment of the DRG weights).

...
....      .........
         ....
  ..... ~~~
............
.........
.....
......       .....
            ......
         '''''''
 ............
..............
""""""",.,-"..
...     .......
    .....
 ....-.
    :\'    ...
 ::::::::::::
  :::::.:!:,
   :::::;:::'
          :::::   .... """'"
              .. ~~~~~  .. ..
                   q''''..,,,
                  ...
           ..........
       .....................
     ".",,,,,,,..
 .........................
"'.""'
     ...........
 .....-..............
               ...........
 ............-..
          .........
 .....-..-.-.....
          .....  .....
            ..q,::"
               '....
                  ....---
                 "''''''.
           ::;::::,
 ...........
    ..    ............         .""
                           .....
                             ......
                              ....
                               ...
                            "'_...
                             .      ~~~~
                                    ....
                                 .......
                              .....
                           ',...........
                                .......
                            .......    ....
                                     ....
                                   .....
                                   .......... ....
                                      ................
                            ........,.......
                                         "".
                                        .....
                                   "''''.
                               '''''''''.'.
                                  ...
                                ....
                                 ..
                                  . .....,..
                                          ..    ....
                                               ........
                                            ......
                                              """,.
                                     ...............,.
                             ..................''''
                                             ......
                                              ...
                                               ...
                                              .-..
                                              :::       ......
                                                  ... ...
                                                        .....
                                                 ~.......
                                           ........    ~~~
                                                        .....
                                               ............
                                      ......................
                                                     ........
                                                ........
                                      """"'"''''''-'-''''.
                                          .......    ...
                                                  .....
                                                   '.'''''--'
                                              ............
                                                       .      ... .
                                                            ... ..'' ....
                                                             ....
                                                             ..~~~~
                                                ...............
                                                           ........
                                                               ...
                                                             ............ . .......
                                                                     ......
                                                                    ....
                                                                  ........
                                                                    ...
                                                              ........
                                                               .....
                                                            .....   .......
                                                                '-""""..",......
                                                             ............
                                                                   ....          :'"
                                                                            .. ......
                                                                        ..........
                                                           """""""'."--'...".'-    . ' .....,

                                                                              ...''...
                                                                          ...........
                                                                         ...
                                                                    '-''''   .....
                                                                            ....
                                                                           ...
                                                                             ...       q',
                                                                               . .......
                                                                                      ...   "......''''''''.
                                                                                         ......
                                                                                           ....
                                                                       .""".'."".'-'.."'..--......""..
                                                                         ...............-.........
                                                                            ...
                                                                         ".'"          ....
                                                                                       ....
                                                                                         .........
                                                                                        ...
                                                                                        ....   ........
                                                                                       ''''''''''''''.  ......
                                                                                                      q...........
                                                                                                            ..q
                                                                                                           ... )):
                                                                                                               ......
                                                                                                             ......
                                                                                                          ......
                                                                                                           .........
                                                                                                       .........
                                                                                                     ............
                                                                                                        '....   ...
                                                                                                                 .,..
                                                                                                                .....
                                                                                                                .._    .....
                                                                                                                     ...
                                                                                                                   ::'      ..:\::,
                                                                                                                         ........
                                                                                                                         .,...
                                                                                                                            ...
                                                                                                                            ....
                                                                                                                            ...
                                                                                                                 ..............
                                                                                                                    ''          ....::)"
                                                                                                                                       :,q
                                                                                                                                   ......
                                                                                                                                   ...
                                                                                                                                    "'..
                                                                                                                                   q"...   .....
                                                                                                                                           ...........
                                                                                                                                        .....
                                                                                                                                        q.   '.".
                                                                                                                                              ", ::.
                                                                                                                                            ,.,    .  ..
                                                                                                                                '......................
                                                                                                                                                     ""'
                                                                                                                                                     ......
                                                                                                                                                   '..................
                                                                                                                     .......,......................................
                                                                                                                    ......,......,.................................
                                                                                                                 ........
                                                                                                                  ,q"
                                                                                                                   ...
                                                                                                               .........    ...
                                                                                                                          ...  '""'."-".'.'..."".'
                                                                                                                                    ................
                                                                                                                                      .....
                                                                                                                        '''''''''.........
                                                                                                                    ......................-......,q"....     ."".
                                                                                                                                                            ......
                                                                                                                                                           ..
 .""...
                                                                                                                                            ....................
                                                                                                                                             ........
                                                                                                                                             ..........     '......,....
                                                                                                                                                            :?::
                                                                                                                                                             ...
                                                                                                                                                          .....
                                                                                                                                                            ,.."
                                                                                                                                                          ::::;:
                                                                                                                                                         ...       .......
                                                                                                                                                                 ".-.
                                                                                                                                                                 ... ..
                                                                                                                                                                    ...     ...
                                                                                                                                                                         ....
                                                                                                                                                                      ....      ...............
                                                                                                                                                                      ...............
                                                                                                                                                                  ...-....   .........
                                                                                                                                                                 ......................
                                                                                                                                                                        ..........
                                                                                                                                                                           ......
                                                                                                                                                                           .......
                                                                                                                                                                          .....
                                                                                                                                                                           ...
                                                                                                                                                                           '..
                                                                                                                                                              /:::::?:::!::!:::............
                                                                                                                                                                                      ........
                                                                                                                                                                                    .............
                                                                                                                                                                       .................
                                                                                                                                                                     ..".
                                                                                                                                                                        ....
                                                                                                                                                                  .......   ."",.
                                                                                                                                                                               ......
                                                                                                                                                                      """"""""'''''-
                                                                                                                                                                 .............
                                                                                                                                                   ......................................
                                                                                                                                                                                  :(.::.
                                                                                                                                                                                 ..-
                                                                                                                                                                                .."      ......
                                                                                                                                                                                        """".
                                                                                                                                                                               ..............     .....
                                                                                                                                                                                               .......
                                                                                                                                                                                          ........
                                                                                                                                        ..........................................................
                                                                                                                                       .........      . ..........................................
                                                                                                                                                           .............................
                                                                                                                                                                   ..................        .....
                                                                                                                                                                                            ..........
                                                                                                                                                                                        .......
                                                                                                                                                                                             ......
                                                                                                                                                                                          ......
                                                                                                                                                                                       ....
                                                                                                                                                                               ...............
                                                                                                                                                                                         .............
                                                                                                                                                                                                  ....  ""'.
                                                                                                                                                                                                       .........
                                                                                                                                                                                                     """"""""."".
                                                                                                                                                                                                     ....
                                                                                                                                                          ...............................................
                                                                                                                                                                     .,......,....     ....   ......
                                                                                                                                                                         ........................-
                                                                                                                                                                                          .....-...
                                                                                                                                                                                            .::::         ....
                                                                                                                                                                                                          ..
                                                                                                                                                                                                        .....
                                                                                                                                                                                                         .....
                                                                                                                                                                                                     .....     .::.
                                                                                                                                                                                                        .........
                                                                                                                                                                                                       ............
                                                                                                                                                                                                        ........
                                                                                                                                                                                                        :..:........
                                                                                                                                                                                                        ......
                                                                                                                                                                                                       ....
                                                                                                                                                                                                          '''''.
                                                                                                                                                                                                         ..            //'
                                                                                                                                                                                                                  .......
                                                                                                                                                                                                               ::);
                                                                                                                                                                                                              ;\:::
                                                                                                                                                                                                                 .."..'.'.
                                                                                                                                                                                                                  --
                                                                                                                                                                                                                  . ..
                                                                                                                                                                                                                  ......
                                                                                                                                                                                                                   .....
                                                                                                                                                                                                                      ....-
                                                                                                                                                                                                                      ...
                                                                                                                                                                                                                    ;:;:;   .......
                                                                                                                                                                                                                   .,.........
                                                                                                                                                                                                                 ...
                                                                                                                                                                                                     ...............
                                                                                                                                                                                                        ....        ..
                                                                                                                                                                                                                  ....
                                                                                                                                                                     ................................................
                                                                                                                                                                          ...........................................:::::.::.
                                                                                                                                                                                                                      .  ....
                                                                                                                                                                                                                        ....  ......-
                                                                                                                                                                                                                            .:;::::
                                                                                                                                                                                                                     .............
                                                                                                                                                                                                                     ..,..",.."'.
                                                                                                                                                                                                                        .......-
                                                                                                                                                                                                                       """""'"
                                                                                                                                                                                                                     .....
                                                                                                                                                                                                            ....................
                                                                                                                                                                                                                 ...
                                                                                                                                                                                                         .........        :....    ....
                                                                                                                                                                                                                                  .....
                                                                                                                                                                                                                                ......
                                                                                                                                                                                                                               ...
                                                                                                                                                                                                                              ...
                                                                                                                                                                                                                              ..    ....
                                                                                                                                                                                                                                    ...
                                                                                                                                                                                                                                  ...          .....................
                                                                                                                                                                                                                                              ......
                                                                                                                                                                                                                         ..........................-.
                                                                                                                                                                                                                                         ..........
                                                                                                                                                                                                                                     . .--
                                                                                                                                                                                                                    '''''''''''''''''''.   .......
                                                                                                                                                                                                                                            ...
                                                                                                                                                                                                                                           ...
                                                                                                                                                                                                                                   .::/:::::  ...
                                                                                                                                                                                                                                               /:::: :......
                                                                                                                                                                                                                                                       ......
                                                                                                                                                                                                                                              ",.""".,-,."'.
                                                                                                                                                                                                                                   "............................
                                                                                                                                                                                                                                         ..........
                                                                                                                                                                                                                                           "."
                                                                                                                                                                                                                                    ...................,........
                                                                                                                                                                                                                                ....,........
                                                                                                                                                                                                                   ..........................    ........
                                                                                                                                                                                                                                                     ..........
                                                                                                                                                                                                                        ...............................
                                                                                                                                                                                                                                                  .....-.
                                                                                                                                                                                                                                                    ...  ...,.
                                                                                                                                                                                                                                                          "'.    """".
                                                                                                                                                                                                                                                ....................
                                                                                                                                                                                                                              .....................         ,......
                                                                                                                                                                                                                                           ...................
                                                                                                                                                                                                                                 :.................
                                                                                                                                                                                                                                             :""'.
                                                                                                                                                                                                                                           ....       ........ "'.
                                                                                                                                                                                                                                                              '....
                                                                                                                                                                                                                                                         /:?:::::::
                                                                                                                                                                                                                                   ::::::::::::::::::::::::::::::
                                                                                                                                                                                                                                   ;:;
                                                                                                                                                                                                                                ::::::::
                                                                                                                                                                                                                             .......... ;:;:;::.
                                                                                                                                                                                                                                          :::::
                                                                                                                                                                                                                                              ::::::::.
                                                                                                                                                                                                                                                ::::  ::,:::.:
                                                                                                                                                                                                                                        .......................
                                                                                                                                                                                                                                              '..               ..      ....
                                                                                                                                                                                                                                                                      ''-'
                                                                                                                                                                                                                                                                       .........
                                                                                                                                                                                                                                                                .........
                                                                                                                                                                                                                                                                  .....
                                                                                                                                                                                                                                                                 .....    ......
                                                                                                                                                                                                                                                                          .....
                                                                                                                                                                                                                                                               .................
                                                                                                                                                                                                                                                               ....    ........
                                                                                                                                                                                                                                                                        .......
                                                                                                                                                                                                                                                               ..........
                                                                                                                                                                                                                                                                     ........
                                                                                                                                                                                                                                                                      ........
                                                                                                                                                                                                                                                          .."'.'"''''''
                                                                                                                                                                                                                                                               ...     ........
                                                                                                                                                                                                                                                                      .........
                                                                                                                                                                                                                                                                  ......
                                                                                                                                                                                                                                                                      ....
                                                                                                                                                                                                                                                                  ''''.
                                                                                                                                                                                                                                                                      "'''.
                                                                                                                                                                                                                                                                    :::::
                                                                                                                                                                                                                                                                     .               .......
                                                                                                                                                                                                                                                                                ........
                                                                                                                                                                                                                                                                               ........
                                                                                                                                                                                                                                                                              ...
                                                                                                                                                                                                                                                                          ;:..;:::
                                                                                                                                                                                                                                                                          ::::::  .....
                                                                                                                                                                                                                                                                                     '."."  .......
                                                                                                                                                                                                                                                                                          ....
                                                                                                                                                                                                                                                                                           ....
                                                                                                                                                                                                                                                                                            '......
                                                                                                                                                                                                                                                                                            ......
                                                                                                                                                                                                                                                                                ..::.:::.:..::
                                                                                                                                                                                                                                                                                        ::::::     ....
                                                                                                                                                                                                                                                                                                     ...
                                                                                                                                                                                                                                                                                                     ......
                                                                                                                                                                                                                                                                                                   ........
                                                                                                                                                                                                                                                                                                  "'..
                                                                                                                                                                                                                                                                                                 ......
                                                                                                                                                                                                                                                                                                  ...       ......
                                                                                                                                                                                                                                                                                                        "..,..,
                                                                                                                                                                                                                                                                                                    ,.."""",..
                                                                                                                                                                                                                                                                                               . ..... .... ...
                                                                                                                                                                                                                                                                                                    .........  ....
                                                                                                                                                                                                                                                                                                        ..........
                                                                                                                                                                                                                                                                                                       .......
                                                                                                                                                                                                                                                                                                     ......
                                                                                                                                                                                                                                                                                                         /:::
                                                                                                                                                                                                                                                                                                  ::?:::::.  .......
                                                                                                                                                                                                                                                                                                            ......-
                                                                                                                                                                                                                                                                                                         .....
                                                                                                                                                                                                                                                                                                         ....-.
                                                                                                                                                                                                                                                                                                           '..
                                                                                                                                                                                                                                                                                                   .........        ...
                                                                                                                                                                                                                                                                                                                    ...
                                                                                                                                                                                                                                                                                                                 ',"'..
                                                                                                                                                                                                                                                                                                                .....
                                                                                                                                                                                                                                                                                                                  ....
                                                                                                                                                                                                                                                                                                               ::::.
                                                                                                                                                                                                                                                                                                               ....
                                                                                                                                                                                                                                                                                                                ...       .-.
                                                                                                                                                                                                                                                                                                                          ...
                                                                                                                                                                                                                                                                                                                       ..::.
                                                                                                                                                                                                                                                                                                                   ......
                                                                                                                                                                                                                                                                                                                       ....
                                                                                                                                                                                                                                                                                                                   ....-
                                                                                                                                                                                                                                                                                                                     ....
                                                                                                                                                                                                                                                                                                                 :)::::::
                                                                                                                                                                                                                                                                                                                      ...  ".,
                                                                                                                                                                                                                                                                                                                           "'. ....
                                                                                                                                                                                                                                                                                                                           .::?:.
                                                                                                                                                                                                                                                                                                                             :'.
                                                                                                                                                                                                                                                                                                                         ......
                                                                                                                                                                                                                                                                                                                             :     .........
                                                                                                                                                                                                                                                                                                                              ........
                                                                                                                                                                                                                                                                                                                                 .........
                                                                                                                                                                                                                                                                                                                               ........
                                                                                                                                                                                                                                                                                                                                    ......
                                                                                                                                                                                                                                                                                                                                  '"...
                                                                                                                                                                                                                                                                                                                                    ",.
                                                                                                                                                                                                                                                                                                                                     :::::   ........
                                                                                                                                                                                                                                                                                                                                           . .....
                                                                                                                                                                                                                                                                                                                                             ...
                                                                                                                                                                                                                                                                                                                                        ' ..,.  ....
                                                                                                                                                                                                                                                                                                                                                 ..,
                                                                                                                                                                                                                                                                                                                                               ....   ........
                                                                                                                                                                                                                                                                                                                                                      .........
                                                                                                                                                                                                                                                                                                                                                      . ...
                                                                                                                                                                                                                                                                                                                                                        ."

                                                                                                                                                                                                                                                                                                                                                  ............
                                                                                                                                                                                                                                                                                                                                                  ...:"
                                                                                                                                                                                                                                                                                                                                                      :::::
                                                                                                                                                                                                                                                                                                                                                        .....  .............
                                                                                                                                                                                                                                                                                                                                                              ."".
                                                                                                                                                                                                                                                                                                                                                            ....     ....
                                                                                                                                                                                                                                                                                                                                                                     ...
                                                                                                                                                                                                                                                                                                                                                                      ,.....
                                                                                                                                                                                                                                                                                                                                                                     .....
                                                                                                                                                                                                                                                                                                                                                                      ....
                                                                                                                                                                                                                                                                                                                                                                      ...
                                                                                                                                                                                                                                                                                                                                                                      .   ......
                                                                                                                                                                                                                                                                                                                                                                          .. .... .     . ..........
                                                                                                                                                                                                                                                                                                                                                                                          . ......
                                                                                                                                                                                                                                                                                                                                                                                          '.' ....
                                                                                                                                                                                                                                                                                                                                                                                      .. ,""'




 quali ty control process revealed no significant discrepancies in

 the reviewers ' code assignments.

The results of this recoding process, analyzed for statistical
significance, form the basis of this report.                                                                                                                                                                                                                                                                        Statistical
methods are discussed in the Appendix.   Addi tional review by
nurses and physicians identified concerns with the quality of
care rendered under       Subsequent OIG reports will discuss                                                                       PPS.
these concerns in detail.

.,..h...
    .h.,,,.                                                                                                      ....h.



ii"
                                                                                                                                                                                                                                                                                               ITAL

                                                                                                                                                                    h""h""'.'......                                                                                     .h.........



                                                                                                            ::f)(' i:ii::::                                            :::.-:I ::;::;:;i);::                                                 ::m:;::f)/?)i::
                   'h""'.

                                                                                                                                 ::?i)?'                                                                                                                                                                                      :::300 + q                                              :TOTAL '
                                                                        ;f?;:)):\:::::::.                                                               :?:::?re:::                          :.:::;:.i::'f:::::::::::




                                                                                                                                                     /.::::r:                     ::::::::r:?:.                                              :::::t:;:'



                     pop, '                  lanon                                                                                                                         2536.                                                                               ::?::603'.                                                                              774"                                   ::::913 .
                                                                                                                                                                                                                                                                                                                                                    !80                                           239
          iriiil,mlwf/!ll                                                                                                      ll"                                                lil:                                      ;iiW
                 ::DISCHGES                                                                               ::::::i:::


                                                                                                                                                                                                                                                                                                                                   3649000 . 8277000
 iliml                                                          !O;ga                                                                                                                                                                                                                                                                    l44716                                           :222396
                                                                                                                            mm­
                                                                                                                                                                  llil;iil!  ......h..
                                                                                                                                                                                                                              lilli                     ffl                                                                                        2386.                                         ::7050




                                                                                                                                                                                           FINDINGS

ERROR RATE OF 20. 8 PERCENT


The DRG assigned by the FI to the codes provided by the hospital
was found to be incorrect in 1 374 discharges , or 20. 8 percent of
the discharges reviewed when weighted by ' the proportion of
hospi tals in each bed size stratum. The error rate was 16.
percent in large facilities , 18. 4 percent in mid-size facilities
and 23. 6 percent in small facilities. The small hospitals had
The number of hospitals available for study was 4  913.  Of the
initial sample of 240 hospitals , one facility terminated its
Medicare eligibility before the actual collection of medical
records. Therefore , the first stage sample included 239 (4.
percent) randomly selected hospitals meeting the three criteria
mentioned above. The second stage of the design employed
systematic random sampling to select 30 Medicare discharges from
each of the 239 hospitals for the period October 1 , 1984 to March
  , 1985. If the hospital discharged fewer than 30 Medicare
patients during that time , all Medicare discharges for the period
were selected for review.
In mid-1986 , the Office of Inspector General requested copies of

the medical records for the sampled  discharges.  Administrative
subpoenas compelled the cooperation of a few institutions. Of

the 222 396 records available from the hospital sample , the

design selected 7 076.   The reviewers ultimately received and
reviewed 7 050 (99. 6 percent) medical records. Payment records
from the FI' s files documented the DRG as billed and the amount
of payment.


The OIG then contracted with the Health Data Institute of

Lexington , MA , to perform DRG validation on the sample records.
Clerks taped over the hospital ICD-9-CM codes on the face sheet

and physician attestation on all records. An ART reviewed each

chart and translated the supportable diagnoses and procedures

into ICD-9-CM codes. An RRA supervised the coding team

providing guidance on the application of coding rules and
resol ving coding issues as they arose.   The official GROUPER
program processed the codes to determine the correct DRG.

Coders had instructions to ignore marginal problems or honest

differences in judgment about appropriate coding. If the newly

abstracted DRG nevertheless differed from the DRG paid by HCFA , a
member of a panel of physicians evaluated the  record.   The
physician did not know the assigned codes during the  review. If
the physician felt that the discharge record in question
presented complex clas ification problems , a physician corni ttee
reso1 ved the issue. The physicians reviewing coding
discrepancies had Board certification in appropriate special ties
experience with ICD-9-CM classification , and recent patient care
responsibility. The physician s involvement was not to clarify
coding, per se , but to identify principal diagnoses and provide
clarification of vague or complex language used by the attesting
physician.   The physicians were further involved in reviewing
instances of poor quality care and unnecessary admissions , which
will be addressed in separate reports.
Five percent of the sample underwent blind re- coding by a
different ART to verify the accuracy of the process.   This
   . ..
   "...
  ......
     ,..   .....
          , .,",
        ........
          .....
         ....
       ...
        ....     .........   . . .. ...   ... ....
                                              . .",.   , .    "'
                                                               ':'           , p( .      , --   , p(.




significantly more DRG assignment errors than large and mid-size
hospitals (Wald Chi-square 39. , 2 degrees of freedom      OOOl).
Hospi tals in the same bed size stratum had similar rates of
errors regardless of location (urban or rural), teaching status
or proprietary versus not- for- profi t                 status.
                                               Weighting by the
proportion of discharges in each stratum and proj ecting these
error rates to the 8. 3 million cases paid under PPS in FY 85
suggests 1 500, 000 discharges were paid incorrectly.
SIGNIFICANTLY MORE ERRORS IN HOSPITAL' S FAVOR

In 61. 7 percent of the discharges with DRG errors , the DRG
assigned on recoding has a lower weight than originally paid.
Thus the hospital's coding gave it a larger payment than it
should have received for the discharge. This differs
significantly from the 50 percent rate expected if errors were
made at random (Wald Chi-square 68. 7, 2 d. f.                                        0001). Previous
studies of coding accuracy, performed prior to PPS but using DRG

systems of classification , have reported higher rates of error
but found the direction of coding error to be random or to
underpay the hospital at nonsignificant rates. Bed size had no
effect on the direction of errors.




                              DRG CHANGES BY HOSPITAL SIZE



         . u..
                                                                                 AMPLE
                                                                                 RCENT

                                                             , TOTAL , DISCHAGE HOSPITAL



     :'1ot31                                                     137                               20.
                                                                       . on ..

     :Urban '                                                         788                          20.4
     :Rural '                                                        :586                          21.3
   ::Teachig .                                                       318                           19.
     Nonteacbig
    .',... n..

                                                              :::1056                              20.

  . Profit                                                           ::140                         21.
      Nonprofit"                                                 :1234                             20.
  ....
  .......
  ...
:..
 .   ... .....
     .:.:....
        .....
           ....
     ........
      ....:::::::
   ....
 :::"::
    ..,
     ::'
 :'..,..    ...
           ,..
         ......
      ....       .....
                ...
                 ,..
         .........
               ... .'''
            . .........
            ........
               .....
           ........ ......
                ....,
            ::::'
               .
            .-.......
               ..
               ......  .....
           ..............
           .....
           ........
           .....
          .....
           :::        .,     . .........................'
                      .........,..
                         ""'''"""""""",,,,,,
                    .........
                          .....
                           :::.
                   ............
                            """ ............
                            .....
                 ................
                      :::
                   """"'   ....
                        ....
                   ............
            ..,..........
                .....            ..
                       .................
                                 ""''''
                                 .......
                                    ..
                  ..."...............
                              ........
                      ..............
                             .......
                 ''''..................
                                    .:'''' ......
                             ....................
                          .....
                             ....        ..........
                                        ......
                                        ..........
                                         """""'"
                                         .....
                                       ............
                                      ............
                                             ......
                                            ....   .. . ::.
                                                     ...
                                                ..............
                                                    .'::
                                        ................
                                              .........
                                                    ...
                                                  ....
                                                  ....
                                               :::::\:.....
                                              ................
                                                     "......
                                                       ...."...
                                                ,............
                                                 .......
                                ...................
                                   ...
                                   ...........
                                        ....   .........
                                                   :::,?,       .."'"
                                                """""""'"''''''''
                                                 ."""'-  ........
                                                     .............
                                                          ........
                                                        ....
                                                      "'''''
                                                       .....   ....
                                                             /::;::
                       '''''''''''''''''''''''''''''''''''''''''
                     ...
                      ......
                        ,.....
                         ...
                         ..   ::::.:...
                                  ....     ......
                                             .   ..  ,   "",
                                                  :::::::::::,
                                                         :;.       ""'
                                                                 ....
                                                               ......
                                                        ""'"''''''''
                                                ................
                                     ....................
                                     .....     .....
                                               .......        ".....
                                                               .:::.
                                                             :::'        .....-
                                                                   ::.........
                                                                     ........
                                                                      !:;::
                                                        ...............
                                        ........................
                                                ..,....                        .....
                                                                               ..
                                                                           .....   ......
                                                                                 .......
                                                                                 ...
                                                                      ..:':'........
                                                                   .........
                                                                   .....
                                                           ..............
                                                                   ..        . .................
                                                                                  ...
                                                                     ...............
                                                                           :/)::
                                                                ............
                                                                ....,..-
                                                              :::::;"'\/)"
                                                                     ..?:(:?:/:)::)'
                                                                 ....::.. .... ::::
                                                                               .....
                                                                               ...
                                                                            ....
                                                           ....................             .....
                                                                                            ....
                                                                                     ................
                                                                                    ....
                                                                                     .....
                                                                                   ...
                                                                                ' .,--...
                                                                                        ........
                                                                                     :::\::/-':"
                                                                                       ':::
                                                                                          ' ''''''
                                                                                         .......
                                                                                     .......... .
                                                                                                :::.
                                                                                               ......  ."...
                                                                                   .....................
                                                                                       ' ......
                                                                                           .....
                                                                                           .............
                                                                                            ...
                                                                                              .....
                                                                                               ...
                                                                                          .......
                                                                                             .''''''   ....
                                                                                                       :......:,,
                                                                                                     .:.....
                                                                                                        .'.....
                                                                                                        ,.....
                                                                                                  ..;;.:""...
                                                                                                         :::::     ......
                                                                                                              ......
                                                                                                                  ::::
                                                                                                        ............
                                                                                                        ........ ?\-'(.
                                                                                                              ......      ..
                                                                                                ..............-.......,....
                                                                                            .......
                                                                                             .......                       ....
                                                                                                                          .....
                                                                                                                           ...
                                                                                                                          .... ...
                                                                                                                  ................
                                                                                                                .....
                                                                                                                  ....
                                                                                                                    .;:.
                                                                                                                    ::::::"
                                                                                                               ".:::.
                                                                                                                    ......        .'...
                                                                                                                      ..............
                                                                                                                                ......
                                                                                                                     '''.........
                                                                                                                            .....'
                                                                                                                               .......
                                                                                                                  .................
                                                                                                                          ....  '..
                                                                                                                                ...
                                                                                                                                 .....
                                                                                                                       ............
                                                                                                                      ............
                                                                                                                        ......
                                                                                                                             ,........
                                                                                                                            ......
                                                                                                                               ....
                                                                                                                             ...
                                                                                                                            ..
                                                                                                                             :,-.::\::':.....
                                                                                                                                        ...
                                                                                                                                     ...... ....
                                                                                                                                           ......
                                                                                                                                             ..... .:\\. ...:'............
                                                                                                                                              . .......
                                                                                                                                        .......    ..
                                                                                                                                                   .......
                                                                                                                                         ........-..........
                                                                                                                                        '::::;;;:/:'
                                                                                                                                      .....
                                                                                                                           ..............
                                                                                                                                  .,...
                                                                                                                                      ,.
                                                                                                                                     ':::
                                                                                                                                       ...
                                                                                                                      ....................
                                                                                                                      ..               .. "'
                                                                                                                                           ...
                                                                                                                                           ::::......
                                                                                                                                                 , :::"
                                                                                                                                               .......
                                                                                                                                                    ..
                                                                                                                                               .......
                                                                                                                                               ....
                                                                                                                                                .
                                                                                                                                                ..
                                                                                                                                                ::     "'"''
                                                                                                                                       ............'....      ..
                                                                                                                                              .................
                                                                                                                                           :'...............
                                                                                                                                                        .......
                                                                                                                                                        ..-..    .::: ................
                                                                                                                                                               ......
                                                                                                                                                                .....
                                                                                                                                                               ...
                                                                                                                                                          ::.::::
                                                                                                                                                     '.....
                                                                                                                                                      ,....       ....
                                                                                                                                                                ......
                                                                                                                                                             ......
                                                                                                                                                                 ::::'...
                                                                                                                                                                .......
                                                                                                                                                                ''''''
                                                                                                                                                                ......     ...... ...
                                                                                                                                                                         .......
                                                                                                                                                                       -....
                                                                                                                                                                          ....
                                                                                                                                                                            .:
                                                                                                                                                                          :':" .,. ...
                                                                                                                                                                              ....... :....'.,."
                                                                                                                                                                                    ' .'
                                                                                                                                                                                 :':::'
                                                                                                                                                                                 ..::::
                                                                                                                                                                                      ..     , "

                                                                                                                                                                                         .....   ,
                                                                                                                                                                                             ,.....
                                                                                                                                                                                           ,........
                                                                                                                                                                                    .........
                                                                                                                                                                                 ............       ......
                                                                                                                                                                                             "'"'''''
                                                                                                                                                                                        ::':':::::
                                                                                                                                                                                           ::::::
                                                                                                                                                                                                :/:::'
                                                                                                                                                                                                ...
                                                                                                                                                                                                 ....
                                                                                                                                                                                                   '..   ....
                                                                                                                                                                                                   .........
                                                                                                                                                                                                       ::,   ,....
                                                                                                                                                                                                       .::::::::
                                                                                                                                                                                                          . ..
                                                                                                                                                                                                         :':..
                                                                                                                                                                                                      ....        ..  ............
                                                                                                                                                                                                                .......
                                                                                                                                                                                                             ......
                                                                                                                                                                                                         .....  ....   ....-
                                                                                                                                                                                                                  .'''''''''
                                                                                                                                                                                                                    .......     . ...
                                                                                                                                                                                                                     ............
                                                                                                                                                                                                                               ........
                                                                                                                                                                                                                             ""''''
                                                                                                                                                                                                               ::,:::,:,:,:::::::,
                                                                                                                                                                                                             ...
                                                                                                                                                                                                               ....
                                                                                                                                                                                                                  .... ..           '''''
                                                                                                                                                                                                                                     :::, ....
                                                                                                                                                                                                                              .::::::::,
                                                                                                                                                                                                                            ...
                                                                                                                                                                                                                             ..'
                                                                                                                                                                                                                              ......       .::, ...:. ... .
                                                                                                                                                                                                                                            ......
                                                                                                                                                                                                                                            ...           .. ::::::::
                                                                                                                                                                                                                                              ,:,::::::,::::::'        , ::.
                                                                                                                                                                                                                                                                      ..       ""
                                                                                                                                                                                                                                                                            .... ....
                                                                                                                                                                                                                                                                . ..:::':::':::::::   ."'...........
                                                                                                                                                                                                                                                                                  . "...
                                                                                                                                                                                                                                                                               .:'::'    "  . ,""....', :,:,.
                                                                                                                                                                                                                                                                                         '':...         , ::: .,.......
                                                                                                                                                                                                                                                                                                              ...'..':::.     .., ':' ::: .
                                                                                                                                                                                                                                                                                                                                  '::':"




                                :t??/::DRGCHANGESTOLOWER
                                                                     :::H
                                                                                                                                              WEIGHT                                                                                                                                                                               H. .


                                                                                              :::O:.
                                                                                                                            BY:HOSPIT AL:: SIZE .




                                                                                                                                        :fo.O             i?9                                                                    TOT
                 NUMBER' OF' "                                                                                                                                                                                                                                                                 " H

                                                                                                                                                                                        :I/

;:iiif
                lgil
::::::?/:::UfbaI:                                                                           :::::?:/55. :
                                                                                                                                    i;::I,fi!i
                                                                                                                                  :'////195'                                           //::::201:
                                                                                                                                                                                                                       I';
                                                                                                                                                                                                                          :::/::::::::)45'
                                                                                                                                                                                                                                                                                                             'H




       i??:                                                                                                                                                            ):r:::;;-::.                  31.                ?):::)?7? ..

                                                                                                                                                                                                                                                                                             i!:r
                                                                                                                         IIIH                                            ;:i+
                            gwg                                                            ::r:
                                              llil
                                                                                                                                                                                                                               II;:





                                                              :,H DRGCHANGES TO                                                                                                                                 HIGHER                                                        WEIGHT
                                                                                                                          --iBYHOSPITAL:SIZE .



                                                                                                                                                                                                                                                                           ''PERCEN                                         OF SAMPLE
                                                                                                                                                                                                                                :"'OTAL                                      DISCHAGE HOSPIT
           ::NUMBEROF '                                                                                  : H'
                                          HAR
                 Total                                                                       ::193.                                        ::::1                                                                                                                                             7.4

             ::Urb
             'Rural'
                                        n'H' ::                                                      47 .                                    :128                                                                                                                                       ' 7.4

                                                                                                    146 " :" 'H'                                     .50 '                                                                                                                             :7.
                 Teaching " "                                                                                -4 H
                               :38 ,
                 Nonteacbing '                                                                      189 ,. .                                     140 '


                Nonprofit .
                 Profit
                                                                                                                          35
                                                                                                                                                 143                                                                                                                                         7.4
...  . .....'...::'' ........ ....".......
.. ..............
     ...
.........
,,,,,,
 ......      '':::''''.
              .................
        .;::-:\':\
        ....
     ....
 ::::. ...   ....
          ::::
          ...  ....
              ,,,    .........
 ""'."""'."..........--
   ......
    ..........."
 .........
.............
 ...                      ...........................
                       ....."..
                 .........
     .........................
                  .........
      .................
       ......................
                    ....
  ....................    -"..........,
              ............,.
          ...........                  ............
                                      ....
                          ..............
 .............,........,................
                                 ...-..
                     .,..,.-..............
                ......",.,'..
                   ..............         ."...,"
                                   ............
                   .,.,,'.'--..............
               ...........
              ........
          .............,,--
      ..'.........
                ....  .......,-
                   .....
                    .....
                     .... ......,
                          ......
                          .....
                         ....---.
       '"."",""....'''''''''''''''''
             ....
             ::.                      ...
                                       ... .....
                                           ....'-:
                                           ....
                                         "'"'          ....
                                                    .... ......
                         ....................................
.................................. ....."....  .........
                                                       ....
                                                    ......
                                                      ......
                                                      .....
                                                         ....
                                                      ....
                                                       ....-     """""
                                                                ......
                                                                 ...
                                                               :.'  ..--...........
                                                                 .......
                                                             ............
                                                                        .......::..............
                                                                          "'.............
                                                      ........,...,............
                                                          . ................
                                                               .......   ........
                                                                           ....
                                                                           ..,,""
                                                                          :::::"  "'"
                                                                                    ...
                                                                                  ....  ........
                                                                                        ..........
                                                                                    ..........
                                                                                    ::::.          .......
                                                                                                ' .......
                                                                                        . '......
                                                                                              ........
                                                                                               .....
                                                                                             .....  .....  ....
                                                                                                       .'....   .....
                                                                                                             .........
                                                                                                            .......
                                                                                                           ...
                                                                                                          .......
                                                                                            ...............
                                                                                 .,............
                                                                             ....,....                           ....
                                                                                                           ...........
                                                                                                          ..........
                                                                                                             ::'-'-
                                                                                                             ....
                                                                                                                ....
                                                                                                                  ....
                                                                                                                  :..    ... ....
                                                                                                                       ...............
                                                                                                                       ......
                                                                                                                    ,......
                                                                                                    .......,..................
                                                                                                             .............
                                                                                                         ........,........    .::::...............
                                                                                                                                 .....
                                                                                                                        .......,..
                                                                                                                               '''.''
                                                                                                                                   ....
                                                                                                                            .........   ....
                                                                                                                                        ...          ......
                                                                                                                                              .........
                                                                                                                                         "'"'.....
                                                                                                                           ...............,.......,......
                                                                                                                             ...
                                                                                                                          ....
                                                                                                                      :::.::).
                                                                                                                        ,  ..          ....
                                                                                                                             ............
                                                                                                                              ..--...
                                                                                                                                ..             ..-,........
                                                                                                                                             ...... ......
                                                                                                                                                    ...       ::::::.
                                                                                                                                                . ..............
                                                                                                                                                   ....    ..... ....
                                                                                                                                                               .......
                                                                                                                                                            ......
                                                                                                                                                             .......
                                                                                                                                                               ',,,      .. ..
                                                                                                                                                                    ..........
                                                                                                                                                                       ..........
                                                                                                                                                      ........................
                                                                                                                                                         ...             .............
                                                                                                                                                                          ".".::::".::.:
                                                                                                                                                                  ................
                                                                                                                                                                ..............
                                                                                                                                                           ......    ..........
                                                                                                                                                                     ....
                                                                                                                                                                  ........
                                                                                                                                                                       .....
                                                                                                                                                                     .....
                                                                                                                                                                      :.:::::.:
                                                                                                                                                   ......................
                                                                                                                                                     .................
                                                                                                                                                        ...........
                                                                                                                                                                  ....          .........
                                                                                                                                                                               ....
                                                                                                                                                                               .....--
                                                                                                                                                                                 :::
                                                                                                                                                                                 .......         . ..
                                                                                                                                                                                   ' '''''...............
                                                                                                                                                                                                  ...
                                                                                                                                                                                                ................
                                                                                                                                                                                                     """..
                                                                                                                                                                                                      .......
                                                                                                                                                                                                        .....
                                                                                                                                                                                                          ......
                                                                                                                                                                                                     ......,
                                                                                                                                                                                                        ;.:
                                                                                                                                                                                                     ......
                                                                                                                                                                                                     .....   .....
                                                                                                                                                                                                           .....
                                                                                                                                                                                                              .... ........
                                                                                                                                                                                                                ....
                                                                                                                                                                                                 '''''''':''''''''.....
                                                                                                                                                                                                          .....            ....   ..........
                                                                                                                                                                                                                              ....... ..':'.......
                                                                                                                                                                                                                        ..........,'...
                                                                                                                                                                                                                        ....
                                                                                                                                                                                                                     .",......
                                                                                                                                                                                                                     .",",..............
                                                                                                                                                                                                                   ...... ........,"....,.
                                                                                                                                                                                                                    ........                  .....
                                                                                                                                                                                                                                              ............
                                                                                                                                                                                                                          ,""",.",,,",,--,,",".',,"
                                                                                                                                                                                                                          ...    ....
                                                                                                                                                                                                                             .....
                                                                                                                                                                                                                                ".. ..
                                                                                                                                                                                                                                     ...            ..........
                                                                                                                                                                                                                                                   ...
                                                                                                                                                                                                                                                ...."
                                                                                                                                                                                                                                              ....'''
                                                                                                                                                                                                                                               ...       ''''''''''
                                                                                                                                                                                                                                                             ..,. ....
                                                                                                                                                                                                                                                         ...."           ' .......
                                                                                                                                                                                                                                                                    .,....            .. .
                                                                                                                                                                                                                                                                                    ....... .. '
                                                                                                                                                                                                                                                                           .., , , ......
                                                                                                                                                                                                                                                                      ......       :::'::':::':"   . ".., ....
                                                                                                                                                                                                                                                                                                           :'-'
                                                                                                                                                                                                                                                                                                            ,       .. .
                                                                                                                                                                                                                                                                                                                  ..' :   .:.:,:,:.:,   .:, .   ':'




 PROJECTED COST SAVINGS OF $308 MILLION

The effect of these errors was to raise the case-mix index in the
hospitals under review from 1. 0720 (as corrected) to 1. 0878 (as
paid)   Consequently, the sample hospitals were overpaid by
$294 000 (out of $22 million total payments for the sample).
This represents a potential cost savings of $308 million (1.
percent of FY 85' s $27 billion in PPS payments) if projected to
the population of PPS               These figures do not represent                                                               discharges.
costs associated with unnecessary admissions , which will be

discussed in another OIG report.





     ..u..


          ::::: NET":F.lNANCIAL" EFFECT, Of::: CODINGCHAN
                                                                                                                    :::f/BY'                        HOSPITALSIZE
  n.. ..


                                        "0""'''''''. .
                                                                                                                     ....u.....," .
 0...... ..

                                                J:*E:.'.::                                                                   :::).lOQ ,                                                           tOO 99'                             H ,                            300+                                            TOTAL
                                                '" HH
                                                                                                                                                   ... HHH
   ....::..ti.                                                                                                                                                                              ::: H.


                                                                                                                                                                                                                                                                                                                               0294 000
                                                                                                                                                                                  iil;iil:                                                                                                                           308, 000, 000

Illi;ll
                                                                                                               !il"iilld;;                                                                                                                                                     ';&fi
              .........
               ... """'''''..
                        ........




PHYSICIAN' S CHOICE OF DIAGNOSIS OR PROCEDURE CAUSED 48 PERCENT OF
ERRORS

The physician s choice of diagnosis or procedure especially the

principal diagnosis , was the single most frequent, reason for

incorrect payment seen in this      study. In
                                           39 percent of the
errors , the principal diagnosis designated by the physician was
not supported by the medical       record.
                                       The attending physician
described a patient who did not have the disease he later
attested to , or who had that disease but was admitted for
treatment of another condition. For example , a patient might be

  , ,





discharged with a principal diagnosis of acute pancreatitis , but
a subsequent review may not support that diagnosis. If the
record did not describe the patient' s complaining of pain , had
laboratory results showing normal amylase and had no orders for
pain medications , the reviewing physician would question whether
the reason for admission was actually some other disease in a
                     , a past history of pancreatitis.
patient with , perhaps                                    The
reviewing physician would also be alerted to the possibility that
the attending physician was not adept in the diagnosis and
treatment of pancreatitis , and would have subj ected the chart to
a review of the quality of care delivered as well as to a review
of the principal diagnosis.
Some errors can be particularly advantageous for the hospital
such as a chronic condition shown as the principal diagnosis
when in reality a patient with that chronic condition was
admi tted for treatment of an acutecondition.     Chronic
condi tions such as cirrhosis, emphysema and arteriosclerosis are
weighted relatively highly (1. 1841 , 1. 0304 and 0. 9392) when
compared to those conditions secondary to a principal diagnosis
     for example, acute gastroenteritis (0. 6121 and 0. 5593,
depending on whether the chronic disorder is classified as a
complicating condition). This represents a difference in
payment of $1 000-$1 300.
The UHDDS definition of principal diagnosis is " the condition
established after study to be chiefly responsible for
occasioning the admission of the patient to the hospital for
rule , or are inconsistent in applyingit.
care. " Errors result when physicians are not cognizant of this
                                            In such instances , it
is the responsibility of the medical record professional , after
an analysis of the entire chart , to inform the physician that the
principal diagnosis he or she selected does not conform to UHDDS
guidelines. Thus , although the original error is the
physician , it is compounded by a coder who is poorly trained
and unaware of the coder s responsibility, aware of it but afraid
or unwilling to confront the physician , or under such pressure to
complete coding so that a bill may be issued that the decision is
made not to follow proper procedure. In   some hospitals , coding
is done from the face sheet only, not from the entire  chart.
This can ensure that errors in the identification of principal
diagnoses will result in erroneous claims for payment , since no
independent review is given to the underlying medical record.
The addition or deletion of a secondary diagnosis can affect a
hospi tal' s reimbursement if the secondary diagnosis is a
complicating condition. These conditions were determined during
the development of DRGs to have a strong likelihood of increasing
the patient' s length of stay by at least one day. Thus , an
increase in payment acknowledges an increase in hospital costs.
(In a few DRGs, a particular secondary code can lead to lower
reimbursement.   Similarly, the addition or deletion of an
operative procedure can cause the DRG to change. As a rule
surgical DRGs are weighted more highly than medical DRGs to
reflect the additional resources involved in performing surgery.
INCORRECT SEQUENCING OF CODES CAUSED 27 PERCENT OF ERRORS

More than a quarter of the errors were due to showing the disease
enti ty that was actually responsible for the admission in the
list of narrative diagnoses , but not as the principal diagnosis.
In other instances , the codes, which correctly described correct
narratives, were renumbered to create an incorrect claim.
To illustrate these errors of both coding and sequencing, assume
treatment of acute bronchi tis.
a patient with chronic lung disease entered the hospital for
                                This would be correctly shown as:
Acute bronchi tis         466.
COPD                      496
and would group to DRG 96 , with a weight of 0. 7996.
Incorrect sequencing by the physician would show the acute
condi tion which actually necessitated the admission as a
secondary diagnosis:
COPD                      496
Acute bronchi tis         466.
which would group to DRG 88 , with a weight of 1. 0412.
Leaving. the narrative diagnoses in correct order , but submitting
codes in the wrong order would also result in incorrect payment
of DRG 88:
Acute bronchi tis         466.
COPD                   (f 496

Coding acute bronchitis as chronic would also have the effect of
causing this example to group to DRG 88:
Acute bronchi tis         491. 2
COPD                      496
IN l2 PERCENT OF ERRORS, AN INCORRECT CODE WAS SELECTED


The narrative diagnoses and procedures written or dictated by

the physician are coded using ICD-9-CM , the three- volume work

described earlier. The coder should use Volume 2 , the diseases

index ,as the first step in assigning a code , and Volume 1 , the
tabular list , as the second step. Frequently, however , a coder

feels so familiar with the coding system that he or she assigns

codes from memory or by turning to what is assumed to be the

correct section of Volume 1 , which contains over 1 000 pages of
codes in numerical  order.    This can lead the coder to assign an
incorrect code , either through failing to properly identify the

disease or the stage of the disease referred to by the physician

or by assuming that the familiar code is the most descriptive in

a given situation. Sometimes a physician may use language which

is unfamiliar to the coder , who assumes an incorrect code

describes the disease. Because of the intricacies of medical

nomenclature and the nature of handwritten notes , errors such as

reading " emphysema " for " empyema " can occur.
Some of these errors were made because coding rules or

conventions were not followed. These are technical procedures
which are shown in ICD-9-CM as " excludes " notes or as specific
instructions , such as " do not code when ' x ' is present " or
rules of coding such as not coding symptoms when the disease

responsible for them has been diagnosed , coding of diseases that

have or have not been " ruled out " etc. Al though some issues of
classification will emerge from time to time , for the most part

these coding conventions are well known.
Coding rules exist as well to govern when a cancelled procedure

may be coded as performed. For example , if the abdomen was
opened to perform gallbladder surgery, but the patient'
heartbeat became so irregular that the wound was closed without

the procedure s being done , the code for exploratory laparotomy

is appropriately used. If , however , the irregularity caused the

surgery to be cancelled while the patient was still in the

holding area , no procedure may be coded.

OTHER ERRORS RESPONSIBLE FOR 13 PERCENT OF CHANGES

Among other causes of errors was physicians ' use of vague or non­
specific diagnostic language. This may also represent an
inadequate diagnostic workup, where not enough is determined
about the patient' s condition to allow a more precise diagnosis.
A few of the erroneous discharges represent non-documentation of
the patient' s condition and treatment while in the hospital.
That is, if the physician had adequately described the patient'
status and treatment , the reviewing physician might have agreed
wi th the principal diagnosis.


Transcription and transposition errors , including key entry
errors , also caused errors in DRG assignment , as did coding
records with multiple attestations , coding from incomplete
                                                             , "





records (e.  , those lacking definitive laboratory results
recei ved afterthe patient was discharged), and showing an
incorrect patient age or discharge destination.

                             CONCLUSIONS

Under PPS , assignment of diagnoses and codes assumes new
importance. Previously, payment had very little to do with any
associated with   it.
factor but the patient' s length of stay and/or the costs
                      Hospi tals may have responded to these new
reimbursement factors by devoting greater attention to the
accuracy of coding, which would explain the lower overall rate of
error found in this study compared to earlier studies.
The direction of the error , however , may confirm that some coding
choices are being made with the intent to increase reimbursement.
The opportunities to do this are many, as discussed  above. It
was not wi thin the scope of review of this study to determine a
hospi tal' s " motive " in coding a higher- weighted DRG than
supported by the medical record. However , the resu1 ts of this
study appear to confirm that hospitals are coding records in a
way that results in a higher payment than is justified by the
medical record. This up- coding resulted in a 1. 3 percent
increase in the CMI in this study.
The finding that small hospitals code in error 23. 6 percent of
their discharges may indicate the relative lack of resources at
these hospitals. These resources would include experienced
well-trained coders , consulting physicians who could provide more
specific diagnoses and sophisticated software which would allow
moni toring of coding accuracy and adequacy of record
documentation. This suggests that further review and educational
efforts should be directed towards these hospitals.
The pressures on hospitals under PPS should provide an incentive
to provide cost-effective   care. At  the same time , remaining
competi tive in the marketplace requires a reputation for
providing high quality care. Thus a balance should be maintained
in which quality of care would not be sacrificed for decreased
costs. If   this is true , hospitals would look to other means for
increasing operating    revenues. Among the measures hospitals
could take would be more streamlined scheduling of admissions and
surgery; cost-benefit analyses of new purchases , particularly of
 state-of-the-art" equipment; and tracking of the costs incurred
by individual patients , compared to the anticipated DRG of that
patient.   Sophisticated software packages have been developed
which allow precisely this level of integration of financial and
clinical data.   The results of this study suggest that in
addi tion to legitimate optimization of codes and thus DRGs     DRG
creep " may be a by- product of this new attention to coding and
costs.
                            APPENDIX


statistical Analysis

Because of the two-stage sample design , this report evaluated its
data by hospitals rather than by discharges. It ca1qulated
proportions of events as the number of events over the total
number of discharges reviewed wi thin each bed size group.
Estimates for the total sample (weighted proportions) were
weighted by the number of hospitals in each  group.  proj ections
to the universe of discharges derived from the inverse of the
sampling fractions with the estimates and variances calculated
accordingly.
Post-stratification analysis followed HCFA practices for
classifying hospitals by their demographic characteristics.
Urban versus rural status depended on whether the hospital'
location fell wi thin the boundaries of a standard metropolitan
area as defined by the Census Bureau. The HCFA considered a
hospi tal to have teaching status if it has an accredited
residency program. These two characteristics warranted logi
analysis because they affected the hospital' s payment under PPS.
This survey employed a generalized logi tanalysis using weighted
least squares for categorical data to test the effects of these
variables on the various events measured in this  study. This
procedure reweighted data to properly represent the effect of
independent variables not controlled by the appropriate degrees
of freedom and provided a test of the significance of the model
parameters and the goodness of fit of the models.
